<html>
<title> - INVESTING IN THE FUTURE: R&D NEEDS TO MEET AMERICA'S ENERGY AND CLIMATE CHALLENGES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





INVESTING IN THE FUTURE: R&D NEEDS TO MEET AMERICA'S ENERGY AND CLIMATE 
                               CHALLENGES

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

                           Serial No. 110-48


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
61-958                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     5
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     5
    Prepared statement...........................................     7
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     8

                               Witnesses

Dr. Susan Hockfield, President, Massachusetts Institute of 
  Technology.....................................................     8
    Prepared statement...........................................    12
Dr. Stephen Forrest, Vice President for Research, University of 
  Michigan.......................................................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................    78
Dr. Daniel Kammen, Professor, University of California at Berkley    31
    Prepared statement...........................................    34
Dr. Jack Fellows, Vice President, University Corporation for 
  Atmospheric Research...........................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................    84

 
                        INVESTING IN THE FUTURE:
                      R&D NEEDS TO MEET AMERICA'S
                      ENERGY AND CLIMATE CHALLENGES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:10 a.m. in room 
2175, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Inslee, Cleaver and 
McNerney.
    Staff present: Ana Unruh-Cohen and Jonathan Phillips.
    The Chairman. Thank you all for being here at the hearing 
that we are going to have today on Investing in the Future: R&D 
Needs to Meet America's Energy and Climate Challenges in the 
Select Committee on Energy Independence and Global Warming.
    America is a Nation of innovators. From the Founding 
Fathers to the YouTube creators, our country has always 
cultivated entrepreneurs with an idea about the next big thing. 
Since World War II, the Federal Government has recognized that 
it is in the Nation's interest to invest in fundamental 
research and development to help keep the economic engine of 
innovation running.
    Today, we are confronted with challenges to our national 
security, our economic security and our environmental security 
that all stem from our over-reliance on fossil fuels. The 
imperative to move to a clean, renewable energy system is 
clear. The need for robust science to guide our way is obvious.
    Because of past investments in energy and climate research 
and development, we have the tools and technologies to begin 
tackling the climate crisis now. Energy saving technologies 
abound. Alternative energy sources are looming. Wind, solar and 
geothermal energy sources are taking market share away from 
fossil fuel. Hurricane tracking and forecasting helped us 
prepare for the arrival of Gustav, Hanna and now Ike. But in 
order to achieve the significant reductions in carbon dioxide 
necessary to avoid truly catastrophic climate change and 
respond to the serious impacts that we can no longer avoid, we 
must invest in further research and development.
    The United States once led the world in the development and 
production of renewable energy technologies. Just as the United 
States once led the world in broadband technologies. After 
years of neglect, we are now losing these races, struggling to 
stay close to our competitors in Japan, Europe and even China. 
The bitter truth is that now we are buying technology from 
abroad that in many cases were developed here in our own 
universities. In 25 years, U.S. energy R&D has fallen from 10 
percent of total R&D down to 2 percent. Instead of building our 
R&D endowment, we have been slowly chipping away at it. This 
trend must be reversed.
    Some have argued that it is premature for the United States 
to adopt a domestic cap on global warming pollution because we 
lack the technology to achieve it. That view is wrong as a 
factual matter, but, more fundamentally, it reflects a view of 
America that I do not recognize. As we have heard at numerous 
Select Committee hearings, technologies exist now that will 
allow us to make tremendous progress. Enacting legislation will 
provide a driver for the deployment of the existing technology 
and an incentive for the development of new technology.
    America is a can-do nation. We answered the call to put a 
man on the moon, to crack the human genome, to build a national 
information infrastructure. With the resources generated by a 
cap and invest system, we can increase our energy and climate 
R&D investment.
    Climate legislation will also send a strong signal to our 
most vital resource, our Nation's students. As we have seen 
here on Capitol Hill and today's witnesses from our top 
universities can attest, young people today are bursting with 
ideas on how to bring about the green energy revolution. When I 
was a student, the Soviets' launch of Sputnik made us all want 
to study science. The government responded with significant 
investments in R&D and trained the next generation of 
scientists and engineers.
    Once again, there is a threat from above us, the dangerous 
build-up of carbon dioxide in the atmosphere. It is time for us 
to respond to that threat and unleash America's creative genius 
on this global challenge.
    We heard the delegates at the Republican convention chant 
``drill, baby, drill''. What the Nation should really be 
chanting to our students, scientists and engineers is ``dream, 
baby, dream''. And in order to make these dreams a reality, we 
must increase our investment in energy and climate research and 
development and adopt the policies to make it clear that the 
green energy revolution has begun.
    That completes the opening statement of the Chair. We now 
turn to recognize the gentleman from Washington State, Mr. 
Inslee, for his opening statement.
    [The prepared statement of Mr. Markey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Inslee. Thank you.
    The title of this hearing is Investing in the Future: R&D 
Needs to Meet America's Energy and Climate Challenges; and I 
frankly can't think of a more important hearing or a more 
pathetic situation in the United States when I consider our R&D 
budget. We are investing I think less than one-sixth trying to 
save the planet Earth than we did trying to get to the moon. 
And, you know, Stephen Hawking said we should prepare to go to 
other planets. I would prefer just to save this one, and I 
think we can even do it cheaper.
    I had some good news and bad news. A couple of weeks ago, I 
went out to Golden, Colorado, and looked at the National 
Renewable Lab there, which is a great place. It was really 
intriguing, saw some amazing things. Saw two plug-in hybrid 
cars parked underneath about a 15-by-20 PV cell array, and the 
two plug-in hybrids could be powered by 8 hours apiece just on 
that array that could fit on top of your rooftop. It was pretty 
encouraging to see the amazing things going on there.
    But what I noted about the National Renewable Energy Lab 
was that it was about the size of a small junior high school. 
It would fit into the janitorial locker of the Pentagon, and it 
was sort of the focus of the Nation's efforts to save the 
planet from, you know, potential doom due to global warming and 
all the security threats we have. And it really put in 
perspective to me how sad our R&D budget is.
    Just--if I could hold up this chart here.
    This is a comparison of the charts showing the R&D budget 
for our Defense Department, showing, from 1960, the spike up to 
about $84 billion. This is the R&D budget for our security 
issues, which is obviously important.
    The middle chart shows our R&D budget in health care that 
has gone up from, you know, 1 or 2 in '60 up to about $28 
billion now.
    And then you compare it to our entire energy budget--this 
budget is not just for clean energy but our entire energy 
budget for everything, dirty coal, everything else. It is now 
at about $3.5 billion, 20 times less than our DOD budget. And 
arguably the best thing we can do for our security is rid 
ourselves from foreign oil. And yet we have this pathetically 
small--it has actually gone down since the mid '80s. You can 
see this decline from here to here.
    So even though we have this triple threat--security, global 
warming and job loss--we have a pathetic R&D budget; and this 
has to be ramped up exponentially, I believe, to take advantage 
of the technologies that are now in pre-commercialization 
stage.
    So I think this is a very timely hearing. We have a lot of 
work to do, and we have got to have a source of funding for 
this R&D program. Thank you.
    The Chairman. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    There has been a great deal of discussion, certainly on 
Capitol Hill, with regard to the need for encouraging the 
utilization of renewables like wind and biomass and solar. And 
the tragedy--and I think my two colleagues have already 
mentioned--is that the R&D spending has been abysmal, and I 
think one of the roles that this committee should play is 
continuing to sound the alarm in addition to securing as much 
factual information as possible.
    Martin Luther King in 1966 said, it may well be that the 
greatest tragedy of this period of social transgression is not 
the noisiness of the so-called bad people but the appalling 
silence of the good people. It may be that our generation may 
have to report that our generation did not do what it should 
do. We need to speak louder as the children of light than the 
children of darkness.
    And so I think that we must continue to call out what we 
see as a diabolical misdirection of our Nation. We are not 
spending the kind of money that we need to spend on research 
and development. If we are, in fact, serious about saving this 
planet--and I am. I have children, and I want all of them to 
have children, and I would like for them to have children--then 
I think we need to do what is necessary. There is no nation on 
this planet with the capability of doing what the United States 
can do. We are simply not doing it.
    So I yield back the balance of my time.
    [The prepared statement of Mr. Cleaver follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    I want to welcome the very distinguished panel here this 
morning, discussing an issue that I feel very strongly and 
passionately about. I spent my entire career in the new energy 
technology business, and I had the opportunity and privilege of 
participating in the development of wind energy technology from 
its very infancy into what it is now, a successful business. So 
I see that as an example of the kind of opportunities that are 
available for our young men and women who get involved and are 
willing to do the hard work that it takes to master these 
sciences.
    In order to inspire them, we need to be willing to spend 
the money here in the Federal Government. We have authorized a 
doubling of R&D budgets over the next 10 years, but the 
appropriations aren't following those authorizations. So we are 
not meeting from the Congress, from the United States 
government, we are not meeting our responsibilities. And we 
need to have a panel of such experts to convince us to do that. 
So please feel free to say what needs to be said. Inspire our 
young people to participate, and let's get the show on the 
road. Thank you.
    The Chairman. I thank the gentleman.
    All time for opening statements has been completed.
    I would now like to recognize our first witness, Dr. Susan 
Hockfield, the President of the Massachusetts Institute of 
Technology. During her time at MIT Dr. Hockfield has encouraged 
collaborative work across traditional discipline boundaries in 
order to pioneer new areas of interdisciplinary study and keep 
the Institute at the forefront of innovation. She has won many 
awards.
    It is our honor to have you with us here today. Doctor, 
whenever you are ready, please begin.

    STATEMENT OF SUSAN HOCKFIELD, PRESIDENT, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Ms. Hockfield. Thank you, Chairman Markey, members of the 
committee. On behalf of the Massachusetts Institute of 
Technology, I am grateful for the chance to highlight the 
overwhelming importance of funding basic energy research. I 
will echo the comments of all of yours and my own.
    As you know, since before World War II, MIT has served the 
Nation as an honest broker on complex technical issues and also 
as a source of breakthrough research. In the past year, as part 
of the MIT initiative on energy, we have delivered landmark 
reports on coal, nuclear and geothermal energy, which have 
helped to inform congressional action. Our faculty is now 
preparing similar reports on cap and trade policy, on solar 
energy, on natural gas, on nuclear infrastructure and waste 
disposal and overall energy technology policy, as well as 
continuing our pioneering work on technologies that will help 
make those options real.
    Today, however, I am here to talk about the research 
funding required to achieve an energy revolution.
    We all know the United States is tangled in what we call a 
triple knot of difficult problems. First, we have a shaky 
economy that has been battered by volatile energy prices, a 
loss of good jobs and threats to our global technology 
leadership. Second, we face a geopolitical situation weighed 
down by issues of energy consumption and security. And, third, 
there is mounting evidence that global climate change is upon 
us.
    Each knot is daunting on its own, and the three are 
profoundly tied together. Fortunately, I believe that we have 
the power to loosen all of these knots at once, with a dramatic 
new level of Federal investment in energy R&D. If one advance 
could transform America's prospect, it will be having a range 
of clean, renewable and low carbon energy technologies ready to 
power our cars, our buildings, and our industries at scale, 
while creating jobs and protecting the planet.
    If we want to own those future technologies, there is only 
one path; and it is research. Yet in the last several decades, 
Federal funding for energy research has dwindled to the point 
of irrelevance. In 1980, 10 percent of Federal research dollars 
went to energy; and today, when we really need energy answers, 
it is an embarrassing 2 percent. From 1980 to 2005, the major 
OECD countries also diminished their investments but at an 
average of 39 percent. But in the U.S. our cuts were more 
drastic. We reduced R&D support by 58 percent.
    And we cannot count on private industry to do the job 
either. Since 1980, research investments by U.S. energy 
companies paralleled the drop in public research. By 2004, 
corporate R&D stood at just $1.2 billion in today's dollars. 
And while this level might suit cost-efficient, mature 
technologies around fossil fuel-based energy, it is wildly out 
of step with any industry that depends on innovation.
    Pharmaceutical companies invest 18 percent of their 
revenues in R&D. Semiconductor firms invest 16 percent. Even 
the auto industry invests 3.3 percent. But U.S. energy 
companies invest less than a quarter of 1 percent of revenues 
in R&D. With that level investment, we can't expect an energy 
revolution. And while we would--and we do--welcome a recent 
surge in venture funding for green technologies, the fact is 
that venture money flows not to revolutionary research but to 
near-market-ready ideas, the very end of the ``D'' in R&D.
    What is the lesson here? It is a simple one. It is that 
while industry must support development and commercialization, 
only government can prime the pump of research. Congress funded 
the basic research that spawned the IT revolution and the 
biotech revolution. Today, to spark an energy revolution, 
Congress must lead again.
    Now why should you or the taxpayers believe that this 
investment will work? It is because the same kind of research 
investment has paid off so spectacularly before. I could call 
on any number of examples, but let me just give you one.
    Over the past 30 years, Congress has allowed the NIH--has 
supported the NIH to invest $4 per year per American in cardiac 
research. That investment has cut death from stroke and heart 
attack by 63 percent. Imagine the same payoff measured in 
electric cars, safe nuclear technology or a smart new grid. The 
potential here from the economy to global security to the 
climate is absolutely boundless.
    Yet of course we are not the only ones to have noticed. If 
we fail to make major strategic investments in energy research 
now, we will swiftly forfeit the advantage to our competitors. 
From China and India to Germany and Japan, other countries have 
the money and the motivation and they are chasing the 
technology almost as fast as we are. We must make sure in the 
energy technology markets of the future we have the power to 
invent, produce and sell and not the obligation to buy.
    So how much should we invest in energy R&D? Let's start 
with how much or, frankly, how little the Federal Government 
spends today.
    We saw your charts, Congressman; and I will say--just 
repeat it with some numbers.
    The total depends on which programs you count. But 
recognized authorities put the number for 2006 at between $2.4 
and $3.4 billion. Just to scale that for comparison, it is less 
than half of what our major pharmaceutical company spends on 
R&D every year, less than one half of every company's 
expenditures. In today's dollars, it is about 2 percent of the 
total price of the Apollo program.
    A range of experts, including the business-led Council on 
Competitiveness, reports Federal energy research must climb to 
3 or even 10 times the current level. In my view, the Nation 
needs to increase energy R&D sharply, moving promptly to triple 
the current rates and then increasing further as DOE builds the 
capacity to translate basic research to the marketplace.
    To establish firm funding guidelines, I believe that 
industry, government and universities must come together to 
create a detailed energy R&D roadmap. Speaking for MIT and I 
know for other research universities, we would be honored to 
help design a strategic plan.
    Let me close with a short vignette.
    In 1940, when Germany invaded France, President Roosevelt 
had a visit from a man named Vannevar Bush, who was then Chair 
of the National Advisory Committee on Aeronautics and was 
formerly Vice President and Dean of Engineering at MIT. His 
message to President Roosevelt was simple. For America to win 
the war, it had no choice but to make aggressive, focused 
investments in basic science.
    The case was so compelling, President Roosevelt approved it 
in 10 minutes. From radar to the Manhattan Project, the 
investments in innovation that decision unleashed were the 
military tools that won the war. What is more, that same 
Presidential decision launched the enduring partnership between 
the Federal Government and the Nation's great research 
universities, a partnership that has vastly enhanced America's 
military capabilities and national security. It has launched 
many of our most important industries, produced countless 
medical advances and spawned virtually all of the technologies 
that define our modern quality of life.
    Vannevar Bush's essential insight was his appreciation for 
the value of basic research in powering innovation. I believe 
that we stand on the verge of a global energy technology 
revolution; and the question before us is, will America lead it 
and reap the rewards? Or will we surrender the advantage to 
other countries with clearer vision?
    Today, as we face the deeply linked challenges of economic 
insecurity, energy insecurity and global climate change, we 
should see in this little bit of history a profoundly hopeful, 
practical path to America's future through rapid, sustained, 
broad-based and intensive investment in basic energy research.
    Thank you very much.
    The Chairman. Thank you, Dr. Hockfield, very, very much.
    [The statement of Ms. Hockfield follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Our next witness is Dr. Stephen Forrest, who 
is the Vice President for Research at the University of 
Michigan. He is a physicist by training. He has made many 
important contributions in the area of communications, 
semiconductors and, more recently, highly efficient lighting 
appliances.
    We welcome you, sir. Whenever you feel comfortable, please 
begin.

STATEMENT OF STEPHEN FORREST, VICE PRESIDENT FOR RESEARCH, THE 
                     UNIVERSITY OF MICHIGAN

    Mr. Forrest. Thank you, Chairman Markey.
    Transforming our fossil fuel economy into one based on 
renewable carbon-free solutions is a national priority of the 
highest magnitude. Solutions to this problem are not simple, 
and there is no single path to energy security, reduce carbon 
emissions and low energy costs. Nevertheless, America's 
research universities, homes to the highest-risk innovation and 
discovery, are ready and eager to join in a partnership with 
government and industry to solve what is the largest single 
problem confronting us in the 21st century.
    Unfortunately, the U.S. has not responded proportionately 
to the magnitude of the crisis. Today, alternative energy 
research is only .02 percent of our GDP. In comparison, for 
example, to Japan, where it is four times that amount. In fact, 
only 1.6 percent of all Federal R&D goes to energy research.
    To put this in perspective, the past 5 years of the DOE 
budget, which includes money that goes for the large network of 
national labs, has averaged $8.9 billion, compared to $28.1 
billion for the NIH and $73.5 billion for defense. This is 
remarkable considering that the immense U.S. energy industry, a 
nearly $2 trillion industry, is bigger than either health or 
defense. Given how underfunded we are at the present and how 
unprepared we are to meet the urgent challenges facing us, we 
can only conclude that Federal investments are not nearly 
enough.
    DOE itself has been crucial to advancing energy research. 
Its network of national labs has long guided energy research to 
our Nation's immense benefit; and initiatives like, for 
example, DOE's solid state lighting program, which supports 
both industry and academia, already has produced successes that 
will soon make the very inefficient incandescent bulb obsolete 
for interior lighting.
    However, to face today's crisis, DOE's programs must be 
enlarged to include new initiatives that encourage 
collaboration and truly promote the transformation of our 
energy economy. It will take more than just increased funding. 
We also need better policy to make it easier and more efficient 
to collaborate across these sectors, to make collaboration both 
streamlined and nimble.
    Even Michigan, with a manufacturing economy under siege, 
can show what great opportunities we have before us. Innovative 
partnerships between universities, government and industry are 
showing a clear path to win-win situations. We can come up with 
energy solutions and strengthen economies.
    Michigan and the Great Lakes regional economies are rooted 
in the heavy manufacturing base that fueled America's greatness 
in the last century. We now can build on that to find new 
answers to our energy challenges.
    Look at the auto industry, for example, where fuel costs 
and carbon emissions dictate that the automobile must be 
reinvented. Internal combustion engines will give way to cars 
powered by electricity and hydrogen. This change will not only 
solve energy problems. It will also spawn new business and a 
new economy.
    My home State already is moving ahead to change our 
economic base to one focused on knowledge and energy 
industries. The Governor's Centers of Energy Excellence matches 
companies, universities and training facilities so that 
research innovations can make it to the market.
    Therefore, to augment DOE's expertise and strengthen the 
drive for alternative energy, we must make two policy changes: 
fully fund the Advanced Research Projects Agency for Energy, or 
ARPA-E, and establish a network of discovery and innovation 
institutes.
    Last year, Congress established ARPA-E, an independent 
agency at DOE, to serve as a critical bridge between 
universities that are the incubators of new ideas and 
companies. Establishing ARPA-E is truly a milestone, but we 
must move quickly to fund it to the recommended level of $300 
million. We have already lost too much time in our race to 
create a secure and clean energy future.
    Discovery and Innovation Institutes, recommended by the 
National Academy of Engineering, represent a second way to 
address multidisciplinary energy challenges. DIIs bring Federal 
agencies, research universities and industry together as 
collaborative R&D labs. DIIs will be regional, ensuring that 
they will draw on local strengths to work in a system that 
seamlessly spans from basic science to commercialization. And 
since it takes more than just science and innovation to build a 
sustainable energy infrastructure, DIIs can also be equipped to 
address socioeconomic and policy issues. This approach can 
provide unique training grounds for the next generation of 
technologists and leaders.
    So the time to act decisively is upon us. Our national 
security, the sustained health of the economy, and our 
environment depend on our success in this mission.
    Thank you.
    The Chairman. Thank you, Dr. Forrest, very much.
    [The statement of Mr. Forrest follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. I would now like to recognize our next 
witness, who is Dr. Daniel Kammen. He is a professor at the 
University of California, Berkeley, and the Director of the 
Renewable and Appropriate Energy Laboratory. His work focuses 
on the analysis of national and international energy policy. He 
is a member of the Intergovernmental Panel on Climate Change, 
and he has been working closely with the State of California as 
they implement their groundbreaking climate legislation, AB 32.
    We welcome you, Dr. Kammen. Whenever you are ready, please 
begin.

     STATEMENT OF DANIEL KAMMEN, PROFESSOR, UNIVERSITY OF 
                      CALIFORNIA-BERKELEY

    Mr. Kammen. Thank you very much. It is an honor to speak. 
And I do have some slides if they could be put up.
    First of all, it is an honor to appear before this 
committee. I can't think of a more vital task, and I am 
delighted with the attention and innovative approaches that the 
committee has been working on. I would like to start with a few 
key findings and then move from there to some of the details of 
what has taken place and what has not taken place in crafting 
our national energy plan.
    The first and perhaps most troubling finding is that the 
global rate of decarbonization of the economy, which had been 
progressing at about 1 percent per year for the past three 
decades, over the last 8 years has now stalled. In fact, we 
have seen a flat line in the sense that the global economy has 
not been improving in its ability to generate dollars of GNP 
and gross world product without producing carbon. This is a 
critical issue, and the lead economies must take a role in 
reversing this trend if we have any hope of meeting our climate 
goals. That is a vital first part of the story.
    The second piece is that public money alone will not solve 
and will not even begin to solve the climate problem. But, 
pardoning the analogy, it is vital that the public sector prime 
the pump in this area. There are a number of features, both in 
terms of the actual dollars spent and their impact on the 
private sector, for which we have a great deal of data, that if 
the public sector does not play a major role in this area, the 
private sector cannot move ahead in the ways that it needs to 
do.
    There are powerful examples. We have already heard about 
the story in the national health field where a concerted 
effort, a planned effort to double the Federal NIH budget over 
about a decade resulted in a far larger increase in private 
sector investment. In fact, while public sector moneys doubled, 
the stability and the path demonstrated resulted in a factor of 
11 to 12 increase in the private sector money.
    We have not seen any plan comparable to that in the energy 
field; and, in fact, a colleague of mine noted that what this 
means is that we will likely live long enough to see the error 
of our ways.
    So a vital issue has been left before us. In the 
semiconductor field, where the United States was demonstrably 
trailing Japan, coordinated public-private sector effort 
resulted in SEMATECH that charted a new course and in fact led 
to a whole range of innovations, so powerful in fact that the 
public money was effectively no longer needed; and this carried 
through at the private-sector effort with a range of 
innovations and a vital part of the overall story.
    The key message in this is that without a plan, without a 
plan that coordinates energy efforts and ties it to our climate 
needs, it is impossible for even a set of well-crafted 
individual programs to get us where we want to go. No matter 
how good a job one does with a particular effort on a subset of 
nuclear or solar or biofuel technology, without that vision it 
is impossible to carry these things through in times of budget 
stress and in crises when money is needed for further areas.
    That is the single most critical part of the story, and 
that is why it is so critical the bill you proposed and the 
versions go forward that lays out a climate plan and ties the 
energy investments to it.
    We have already heard about how critically small the energy 
investment has been as a part of our overall economy; and, in 
fact, the energy field is investing at roughly 1/10 the average 
rate of reinvestment of revenues back into research of the 
economy overall. And as the President has already mentioned, we 
have already seen higher levels in biotech and other areas, 
where investments at 10 to 15 percent of total revenues have 
been put back into some of the areas of biotech. This is the 
sort of investment that is possible in the energy area; and, in 
fact, this is the sort of investment that is critical in the 
energy area to meet the goals ahead of us.
    We have a number of key things that we have done relatively 
quickly. Right now, we have a relatively poor program to 
transfer technologies from our national labs and from some 
universities into the public sector. We have had times in the 
past where various arrangements like credas have been 
successful in bringing these technologies to the market, and we 
need to unleash that potential again.
    We also have a wide range of international initiatives 
where the United States could profitably partner, both in terms 
of technology research and development sharing and in outreach 
and dissemination. There are important opportunities for the 
U.S. in India, the U.S. in China, United States and Europe to 
move ahead. And in fact the most compelling message you will 
hear when talking to European leaders is how critical it is for 
the United States to re-engage and to reap the lion's share of 
the benefits in this area.
    This is not a selfish endeavor. This is one where we 
critically must see those investments.
    And I will highlight one item on this final slide. This 
shows the composite aggregate growth rates in investment in 
clean energy when you look at Europe, North America and Asia. 
It is notable not only that we are seeing high rates in other 
parts of the world, but in fact the rates have increased in 
Europe, and in Asia are far outstripping the current investment 
rates in the United States. This is a shame, and this is bad 
for our economy.
    We see the world's largest wind company in Denmark, a 
country of 5 million. The next Google of wind, of solar, of 
fuel cells should all be U.S. companies. We actually have the 
technology innovation centers, Silicon Valley, Route 128, the 
Austin area, areas evolving in the Detroit area are all primed 
to do this. But without that strong Federal signal that public 
moneys and public investment and universities will focus on 
these areas, you send a very mixed message to industry that we 
will move ahead in these areas.
    So I urge us to use as the basic part of this equation the 
need to push dramatically ahead on funding as all of us, I 
believe, are advocating for, but also to set the critical 
policy environment where a price for pollution will be part of 
the equation, where efforts will be targeted at lowest-cost 
programs, not at pet programs, and a program where the Federal 
Government will take the lead by beginning to do carbon-based, 
cost-effectiveness analysis of Federal programs both on the 
research side and on the deployment side. And it is vital to 
link those two parts of the equation.
    While the Vannevar Bush story is an awesomely powerful one 
and we cite it for good reason in many situations, the 
immediacy of climate change now dictates that we highlight 
equally the R&D side and the deployment side. If we don't focus 
on both, it will be impossible to achieve our climate goals.
    Thank you very much for the chance to address the 
committee, and I look forward to the question and answer 
period.
    The Chairman. Thank you, Dr. Kammen, very much.
    [The statement of Dr. Kammen follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Our final witness is Dr. Jack Fellows. He is 
Vice President at the University Corporation for Atmospheric 
Research. He worked in the White House Office of Management and 
Budget, where he oversaw the budget and policy issues related 
to NASA, NSF, Federal-wide R&D programs that helped initiate 
the U.S. Global Change Research Program.
    We welcome you, sir. Whenever you are ready, please begin.

   STATEMENT OF JACK D. FELLOWS, VICE PRESIDENT, UNIVERSITY 
              CORPORATION FOR ATMOSPHERIC RESEARCH

    Mr. Fellows. I would like to thank the committee for this 
opportunity to testify today, also; and I commend the committee 
for your tireless efforts on this important topic, including, 
Chairman Markey, your introduction of the recent iCAP 
legislation.
    As you said, my name is Jack Fellows. I am the Vice 
President of a nonprofit consortium of over 70 universities 
that are very interested in this hearing. Every member of the 
committee actually has one of my university members either in 
your State or in your district.
    I will respond to the steering committee questions in just 
a minute, but I want to emphasize that my responses are based 
on a community document that provides advice to the next 
administration and Congress on making our Nation resilient to 
severe weather and climate change. It was created by eight 
organizations that represent thousands of experts in the 
public, private and academic weather and climate enterprise, 
and I have submitted that document as a part of my testimony.
    Our 50 States are battered by billions of dollars of 
weather and climate-related damages and losses each year, and 
it isn't clear how these impacts are going to change as the 
climate changes. I am talking about floods, tornadoes, 
hurricanes, drought, sea level change; and adapting to these 
changes will be crucial for economic and social stability and 
in particular making water, food and energy supplies reliable 
and sustainable into the future.
    Our country has made substantial investments to improve 
weather and climate tools and information, and we have made 
tremendous progress over the last 40 years. We are very 
grateful for this support. But due to the complexity of this 
problem and years of declining budgets, these community 
partners who wrote this document are concerned that our Nation 
does not have all the tools we need for an effective energy and 
climate strategy. In particular, one that helps local and 
regional decisionmakers deal with climate change, one that 
supports the implementation of carbon emissions reduction 
proposals like iCAP and one that helps actually build a 
prosperous, carbon-free economy, including making forecasts for 
green industries like wind and solar.
    Our ability to provide the right scale and type of 
information in these areas is hampered by the lack of key 
observations, computing, research and modelling and effective 
coordination. Regardless, a lot of local and regional 
decisionmakers are moving forward with inadequate information 
in the face of substantial climate feedback, uncertainties that 
may prove very costly to civilization--for example, how quickly 
the polar ice caps are actually melting.
    Given the urgency of the situation, the community partners 
have actually provided this document to the Obama and McCain 
campaigns and also collected nominations for weather and 
climate positions in the next administration.
    Let me address the questions that the committee gave me.
    The first one was, what are the current Earth observing and 
climate modelling investments and how do they compare to the 
past and with other countries?
    There is really no effective inventory of these activities 
in the U.S. right now. That is one of the recommendations of 
the community document, to create that kind of inventory.
    There is something called the Climate Change Science 
Program that provides the best estimates that we have. This is 
a program that involves 13 Federal agencies and we hope has 
about $1.9 billion appropriated in 2009. In my testimony, I 
actually provided a funding history of the Climate Change 
Science Program, but a brief summary, the funding is roughly 
back to where it was in the early 1990s. So whatever gains we 
have made over the last couple of decades, we have lost. I am 
not familiar with the current funding in other countries right 
now, but in the past it has been roughly equivalent to the U.S. 
investment.
    The other question you ask is what investments are needed 
to meet our energy and climate challenges now?
    These community partners are making recommendations in the 
areas of observation, computing, research modelling, societal 
relevance and leadership and management. And in that document 
it includes a budget table with specific program and budget 
estimates that total $9 billion over the next 5-years, well 
within the kind of $7 to $9 billion that the iCAP legislation 
is trying to raise for domestic climate adaptation activities 
each year.
    Third and fourth question I was asked is, what policies are 
needed to optimize these investments and what should be the 
private, public and academic roles in this effort?
    The community partners provide an entire section in our 
document on leadership and management recommendations and how 
these three sectors ought to work together. Leadership will be 
a key ingredient to optimize these investments, and that is why 
the community partners are actually collecting nominations for 
leadership positions in the next administration.
    This section also includes a set of policy and management 
approaches that build on proven management tools that were 
available in the 1990s, and that includes a climate leader at a 
level equivalent to the President's national security and 
economic advisors, an effective interagency coordination and 
oversight mechanism, an annual integrated weather and climate 
program and budget review and evaluation mechanisms to make 
sure that we are making progress toward our goal.
    That concludes my remarks, and thank you very much for the 
opportunity to testify.
    The Chairman. Thank you, Dr. Fellows, very much.
    [The statement of Mr. Fellows follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. The Chair will now recognize himself for a 
round of questions.
    Dr. Kammen, do you believe that we have adequate 
technologies to begin reducing global warming pollution now 
even as we increase our investment in R&D in the years ahead?
    Mr. Kammen. I do very strongly believe that we have an 
adequate base to begin. We clearly have areas where we need 
research, a number of individual technologies on the balance 
between investing in efficiency now and some of the low-carbon 
technologies in the long run. But as a platform to begin that 
process today in the economy that base exists, and yet we need 
to bring much, much more of it to market than has been the case 
in the past.
    The Chairman. Dr. Hockfield, could you respond to the same 
question? Do we have adequate technologies today to make a 
significant beginning?
    Ms. Hockfield. We have adequate technologies to make a 
significant beginning. What we feel is that we have important 
things we can do in the near term. But in the mid term and the 
long term, we have got to invest aggressively to improve those 
technologies to make them more economic and more efficient. But 
we certainly can begin today, and I think we have to start 
today.
    The Chairman. Let me ask you this, Dr. Hockfield. What is 
the interest level of students at MIT with this issue?
    Ms. Hockfield. The interest level is deafening. Just as one 
example, our students are wildly enthusiastic about it. We 
can't give them enough. We have a student-led energy club that 
was established just 3 years ago, and now it is over 700 
members. This is largely a graduate student organization, and 
it was established by graduate students across all of the 
different schools at MIT who recognize that, in their desire to 
be energy professionals, they are committed to working in the 
field, that their educations that they were receiving in the 
department of mechanical engineering or in their MBA program at 
the Sloan School of Management was insufficient to make them 
well-educated energy professionals. And so they have linked 
resources across the entire Institute to educate one another 
about all of the things they will need to be powerful advocates 
and powerful facilitators of a bright energy future.
    The students' interest is absolutely deafening, and one of 
my fears is that if we don't fund the kind of research that 
will fuel innovation, these very brilliant students will see 
that a bright future actually lies elsewhere, even despite 
their passion for solving what I believe is the greatest 
challenge of our era.
    The Chairman. Thank you, Dr. Hockfield.
    Let's talk a little bit about the R&D budget in terms of 
how it compares to past R&D budgets and just kind of get your 
sense across the board of what needs to happen. Does it need to 
be increased from a doubling to a tenfold increase in order to 
deal with the magnitude of this challenge? Could each of you 
give us a sense of what you believe is the most appropriate?
    Mr. Forrest. If I can jump in, I would like to go back one 
step and talk about climate change and energy and then get--
and, if I may, then go to that other question.
    But the issue of do we have enough tools for climate change 
and pursue energy at the same time I think is a vital one. It 
is not an either/or proposition. We have to take them both on. 
We do have the tools. And the best analogy I can give was in 
the Second World War. We didn't have a choice to say will we go 
after Germany or Japan? It was both. And that is the same 
situation we have today.
    In terms of the budget, I think the overwhelming opinion of 
this panel--I can certainly speak for myself--is that we are 
woefully underfunded. So if we talk about a 10 times increase, 
yes, but we also have to also build the capacity. So you can't 
do it overnight.
    We have a very large reservoir of student interest, as 
President Hockfield has mentioned; and I think that we just 
have to really get on with it right away and start to fund some 
of these institutes, ARPA-E, for example, and just start moving 
up that chain as rapidly as we can. But certainly I think the 
numbers would justify a tenfold increase.
    The Chairman. So the NIH budget is approximately $30 
billion a year?
    Mr. Forrest. Yes.
    The Chairman. Research on health problems. Is that the 
scale that you think we should be talking about, Dr. Hockfield?
    Mr. Forrest. Yes. Certainly the level of intensity of the 
problem is every bit as much as what we are tackling with 
health; and when we really cut the numbers for the DOE right 
down to what is going into science, it is about $1.5 billion.
    The Chairman. Dr. Hockfield, do you agree?
    Ms. Hockfield. Whether it is $1.5 or $4.5 billion, it is 
vastly insufficient. And I think you have drawn the comparison 
that I immediately go to as a life scientist, which is a 
comparison with the NIH budget. The NIH budget is close to $30 
billion, and that is a lot of money. But we have gotten a huge 
bang for that buck.
    Just think about it. I gave the example of heart disease 
and stroke. Look at AIDS. In the beginning of the 1980s, this 
was a disease that had no cure. It was a death sentence, and we 
projected that every hospital bed in America was going to have 
an AIDS patient in it. This was a very tough problem. A new 
disease. We didn't understand anything about it. We have turned 
it, through investments, into a chronic manageable disease. The 
costs to health care savings are 140 times the investment in 
research dollars, and that doesn't even begin to account for 
the economic benefit of these people being in the workplace.
    We can do the same thing around energy, and it will fuel--
you know, Federal investments can fuel an innovation economy 
that will be good for everyone.
    Now we talk about how much money. You know, I say three 
times right now. Let's do that immediately. And whether it is 
10 times, you know, over a 10-year period or it gets to the NIH 
budget level, I think it has to. These are problems that we can 
solve, and we know how to solve them.
    And it will have the added benefit of, you know, fueling 
the young people of America. Right now, we kind of wring our 
hands over our young people's lack of interest in science and 
engineering and mathematics. Well, when I was growing up, it 
wasn't that I had an abstract interest in these things. I had a 
real interest in these things. Because we are going to win the 
race to the moon.
    And I think we could power up our young people today with 
the same kind of enthusiasm for solving these energy and 
climate challenges. Not to mention the building of new 
industries that would come out of it, as we have demonstrated 
so many times in the past. This is America's gain. We should be 
able to win it this time.
    The Chairman. Thank you, Dr. Hockfield.
    My time is going to expire. I apologize to you, Dr. Kammen.
    But there has been, unfortunately, a 16 percent reduction 
in the NIH budget over the last 4 years as well. So we really 
do have to change the whole approach that America is taking not 
only to energy but health and other issues, because these are 
the real threats to ordinary American families, much greater, 
actually, than the likelihood that a terrorist will come to 
their hometown. These are the issues that are actually going to 
impact their families' futures.
    My time has expired. The Chair recognizes the gentleman 
from Washington State, Mr. Inslee.
    Mr. Inslee. Thank you.
    I would like to ask about how to structure this imminent 
exponential increase in R&D that we will imminently obtain 
maybe in March next year, I hope. One of the concerns I have is 
structuring it so that R&D goes into stovepipes, into favorite 
programs, which is a thing I think we want to resist. And I 
would just like your comments. Maybe I can start with Dr. 
Kammen about that.
    Would it be an issue right now, frankly, about whether to 
create a revenue stream that would fund just R&D just in coal 
sequestration, which I have heartburn about because I don't 
think we should limit R&D to any one particular technology. We 
should have a broad-based recognition that some of these 
technologies will succeed and some of them will fail, and we 
should not put our eggs in any one basket. Dr. Kammen, any 
comments?
    Mr. Kammen. I very much appreciate the chance to address 
that, because this is a critical issue. The lessons from the 
NIH budget increase were that you did need to ramp it up in a 
way that industry and universities could absorb it. Our time 
constant in academia is actually about 4 to 5 years for a 
doctoral student to come to fruition. And then in the industry 
side it is actually often another 4 or 5 years for them to 
become technologies in the market. So this tripling is a good 
starting point. In our papers, we actually advocate a 5 to 10 
percent increase based on the climate challenge.
    But this issue of stovepiping is a vital one; and, in fact, 
we have had a series of interesting individual program areas in 
the Department of Energy, at EPA, et cetera, but we have not 
had the kind of cross-technology comparisons that you are 
speaking towards. And by far the most effective tool we have 
now is to examine technologies in batches. There are things 
that are nearer term, where a carbon cost effectiveness can be 
performed. But there are also areas which are further off, 
higher payoff, high risk, where we are going to need to have 
some areas where we look at with longer-term missions.
    The most important lesson we have seen from past efforts is 
that, for both the near term and for the longer term ones, 
stability and a plan is the most important future. The private 
sector cannot ramp up in the broad set of areas we need if we 
don't see that stability. So the long-term budget increase is 
part of the story. And targeting individual ones early on, 
especially those already have a large market share, has not 
proven to be an effective use of money in the past. And so 
targeting money in the coal area is a concern, as it would be 
in targeting a number of others.
    So I urge the committee to look at this broad portfolio 
approach and to use that to evaluate not only individual 
technologies but those that have critical synergies. We have 
seen efforts where wind and natural gas can work well together, 
and so structuring incentives on the deployment side to draw 
those technologies into the market is critical as well.
    So, again, pushing on the policy and it is research-based 
at the same time is the best way to bring these technologies 
broadly into the market and to re-energize a number of U.S. 
firms to become leaders in these areas.
    Mr. Inslee. Dr. Hockfield.
    Ms. Hockfield. I want to emphasize this idea of approaching 
a portfolio of technologies. We can't choose winners now. We 
don't know what they are going to be; and we have to invest 
money, you know, in a number of technologies.
    One of the problems is this kind of research is done across 
a number of Federal agencies. So how can we bring them together 
to get appropriate synergies and reduce unnecessary redundancy?
    I think it is important to enter into a very rapid 
strategic planning energize that pulls in government, industry 
and universities to set out a game plan; and I hope that there 
will be some kind of Federal counsel around these energy issues 
bringing in the relevant agencies, not just DOE but DOD, NIH, 
NSF, EPA HUD, you know, around building standards. And I don't 
know who might chair this council of secretaries, but perhaps 
it could be co-chaired by the President's science advisor and 
the Secretary of Energy. But some way of integrating approaches 
not just within a single agency but across agencies.
    Mr. Inslee. I think that is an important way to think about 
it.
    One quick question: To get to this plateau where we need to 
do this major ramp-up of R&D, it takes some political 
throwaway. We have got some great ideas floating around. We 
need some political throwaway, frankly, to get Congress and the 
executive branch--we need a combination of--a new Vannevar Bush 
having these conversations with the next President and Members 
of Congress. But we need a lot of people around here.
    I just wonder, maybe Dr. Fellows, do you have any thoughts 
about how to develop a real consortium, you know, nationally 
between academia and the industry? How do we build a real 
movement to get this job done, as happened in the health care 
industry that really developed a uniform, you know, strategy to 
get this job done.
    Mr. Fellows. Well, you know, it is happening at various 
scales. The rest of my day I am spending up here on the Hill 
with the American Geophysical Union on a congressional visit 
today to talk about these various issues.
    But the document I mentioned in my testimony was written by 
these eight organizations that represents thousands of experts 
in both the public, private and academic sectors of the weather 
and climate community. So it is starting to happen, and we are 
writing these documents and providing them to leaders like 
yourselves to try to build these coalitions. In our community, 
we have about 20 years of multiple agencies working together; 
and there is some good history here on how these kind of 
integrated programs can be done. But leadership is key, and 
getting the right leaders and the right kind of political focus 
on here is step one.
    Mr. Inslee. Thank you.
    The Chairman. The gentleman's time has expired.
    Unlike President Kennedy, who had Jerome Wiesner, became 
president of MIT, or President Roosevelt, who had Professor 
Bush come in, it is unclear that this President Bush knows the 
name of--much less has ever met with--his own science advisors. 
So there is a stark difference historically in terms of the 
relationship with this subject.
    Let me turn now and recognize the gentleman from Missouri, 
Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Hockfield, you may have already at least partially 
answered this question. But I am wondering what are the most 
important emerging technologies of which we should be aware and 
what are ways in which we can best support these efforts?
    Ms. Hockfield. The incredibly accelerating demand for 
energy--it is great now. It will probably double by 2050--
demands that we pursue a portfolio of technologies. The current 
technologies that we are using are not going to, you know, go 
out of phase tomorrow, and we have to work very hard to 
increase their efficiency and their economy while we can 
develop the technologies of the future.
    We have work going on at MIT across a range of 
technologies. We believe that nuclear is going to be an 
important piece of the energy equation in the future. We are 
very, very excited about the opportunities around solar, wind. 
Geothermal, a technology that was about to be put to bed except 
for the MIT geothermal report came out about a year and a half 
ago and happily rescued that at the last moment.
    There are a number of technologies; and, frankly, I believe 
there are technologies we don't know about today because we 
haven't unleashed that engine of innovation that comes out of 
basic research. So I don't think we can make that step yet.
    There are enormously exciting things right on the horizon. 
There are exciting things in hand that just need further 
development. But it would be desperately premature to pick any 
one or a small set of them for development. We are going to 
need everything we can get our hands on. The current 
technologies have to be improved, and then we have to innovate 
around the technologies of the future.
    Mr. Forrest. If I could jump in on that, if you look at 
what is price competitive today with fossil fuel in the 
renewable sphere, the most competitive is wind. But the source 
of energy which is unlimited out there is solar, and the thing 
that is holding us back from solar right now is cost. It is the 
cost per watt that you pay, which is--depends on how you do 
it--it is between double and triple that of fossil fuel today. 
But it is marching down at an extraordinary rate.
    So if you look at solar, you look at biomass, you look at 
energy storage which will transform the automotive industry, 
you have several really strong incumbents that we can move 
forward with. It is really just a matter of hitting price 
points at this point.
    Ms. Hockfield. Can I just add in the thing about storage? 
Storage is absolutely critical for all energy technologies. 
Solar, the price of photovoltaics may come down. But if we 
don't have our hands around storage, that is going to be 
problem. And one of the most exciting areas that I see going on 
is new battery technologies. And it will be the cars of the 
future. Actually, not such distant future. But it is going to 
be critical to make solar and wind viable technologies.
    Mr. Cleaver. Dr. Kammen.
    Mr. Kammen. There are also technology areas that bring in 
other areas of expertise. There is no question storage that is 
important. There are some interesting efforts going on in this 
area. But the basic backbone of this whole system is going to 
be our transmission distribution system, and many universities 
have allowed this area to lapse so there are in fact no power 
electronics professors at a number of leading engineering 
universities. That is a huge oversight, and it is a huge 
mistake, because our renewable energy resources are not always 
coincident with what exists today.
    Mr. Cleaver. What can Congress do?
    Mr. Kammen. There is a range of things. One is we need 
better regulation with what the Federal Energy Regulatory 
Commission does. We also need ties into what the National 
Academy of Engineering does. Because the advances in power 
electronics come in from work in a variety of areas, from 
everything from what is going on with our cell phones to power 
management issues, need to be applied to make the new grid that 
we are going to build in some form anyway as flexible and as 
smart as possible so it really becomes the clean energy 
superhighway and not yet just another build-out of what we have 
as --right now, we have quite an antiquated system. That one 
requires an integration with people who think of themselves as 
energy researchers and those people who think of themselves as 
electrical engineering and controls folks.
    Thankfully, this country has a large resource there, few of 
which, however, have been applied right now to working on that 
new grid. So this is again an area where basic research and the 
application deployment are taught.
    Texas had a historic recent vote to permit and to fund a $5 
billion superhighway for wind power, essentially from west 
Texas and eastern New Mexico into the population centers. And 
that sends a strong signal. We need to get the basic research 
so that the new version of the grid is up to the task.
    Mr. Cleaver. So it would help probably if we had an 
Environmental Protection Agency.
    Mr. Kammen. It would definitely help if we were protecting 
the environment and coordinating those efforts in what we do in 
terms of land, in terms of Department of Energy, in terms of a 
lot of the basic infrastructure. Even building and housing is 
going to be tied in, because many of our homes and businesses 
can, in fact, be power plants.
    Mr. Cleaver. I am going to introduce a bill to create an 
EPA because I think this country has long needed an 
Environmental Protection Agency, and I think such legislation 
should come forth in this Congress.
    Dr. Fellows.
    Mr. Fellows. Well, I wanted to add a perspective from the 
climate community on priorities.
    Our current climate models reproduce a history of the 
climate quite well, and we can tell you whether a continent is 
warmer or wetter. But I recently had the executive director of 
the Colorado Public Health and Environment Department come and 
visit. And he asked me for the precipitation and temperature 
trends long-term in the Denver area. And our models are 
operating on a grid cell size of 100 kilometers; at that level 
you can't even see the Rocky Mountains, so I can't provide him 
those kind of long-term precipitation and temperature trends in 
such a small area.
    One of our highest priority areas is to drive down that 
modeling to a level that local and regional decision makers can 
actually get the information they need to have to make plans 
about water, food, transportation system, things like that.
    Mr. Cleaver. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Dr. Hockfield, I would like to get an idea--you are asking 
for a fairly large amount of money--how you see that money 
being allocated. One of the reasons I ask is because a concern 
I have is, young students that want to go to graduate school 
have to spend 5, 6 years after getting a degree, and they are 
living at fairly low wages during this period. And even when 
they graduate with a Ph.D., they are still facing years of 
substandard wages compared to someone who just went for a 
bachelor's degree into finance, for example.
    One of the experiences I had lately was, a math professor 
said there are plenty of math students now, there are more than 
you can imagine. And that was the good news. But then he said, 
they are all going to finance, which is not bad news, but it is 
not what we need in this area.
    So could you give me some idea of how you think we could 
address that and similar problems?
    Ms. Hockfield. I hate that we all sound like a broken 
record, research dollars, research dollars, research dollars. 
But one of the geniuses of the Vannevar Bush appeal to 
President Roosevelt, and it was then articulated in Science: 
The Endless Frontier, which set out the blueprint for the 
American research enterprise, was that we created these 
magnificent research universities that, at their best, really 
do integrate research and education together. And frankly, most 
of my faculty--not all of them, but most of them--could have 
jobs in industry and be making twice, three times, in some 
cases ten times what they are making. But they are so motivated 
by this marvelous draw of invention-innovation, and being 
around young people we really do put research and education 
together.
    So by investing in research, we are talking about investing 
in graduate students, we are talking about investing in 
postdocs. The reason that the students in mathematics and in 
electrical engineering and computer science are going to Wall 
Street when they come out of MIT is because that is where the 
jobs are. When they look at their faculty who--Empower 
Electronics is a great, I am so happy you brought that up, a 
great--we have a couple faculty who are working in it, but 
miserably funded.
    So a smart young person is looking forward to a life of 
what? There isn't a career track that they can proceed because 
frankly there has been a roller coaster of energy research over 
the last several years. It is funded, it goes away; it is 
funded, it goes away. These people want a career where they 
can--frankly, they will accept lower salaries.
    Mr. McNerney. I heard some very bad news about the 
University of California, in particular the math department 
there. One of the finest math institutions in the world is 
saying that next year they may not be able to accept new 
graduate students unless they get additional funding. This is a 
terrific tragedy for our country.
    Ms. Hockfield. So part of the government's abdication from 
the commitment that was set out in the Science: The Endless 
Frontier blueprint was a real partnership between the research 
university and government; and the government has abdicated 
that through these reductions in research funding. And one of 
the places where it hurt the most is in funding for mathematics 
graduate education. It has become very, very difficult to fund 
graduate students at a level that is commensurate with what 
late-20-year-olds need simply to live at a reasonable level in 
a place like Cambridge or New York City or in the Bay Area.
    Mr. McNerney. One thing that might help is specific 
academic programs that entice students in energy fields.
    Could you address that, Dr. Kammen.
    Mr. Kammen. Certainly.
    Actually, we had a spate of developing these programs in 
the 1970s during the last time we had this ramp-up of energy 
funding. My program, the Energy and Resources Group, program at 
MIT, Carnegie Mellon, Penn, or a number of the beneficiaries of 
that, a number of these died out or withered away because of 
this true desert of funding.
    We now see students back in droves. When I came to Berkeley 
from Princeton in 1998 there were 45 students in the graduate-
level energy class. We capped the class this semester of 320. 
And to let you know, I have a huge problem finding qualified 
teaching assistants because we have so swamped the potential 
spaces.
    So there is good news in the pipeline as referred to at MIT 
as well; at Michigan and Texas it is all going on. But we 
really do need to build out this business side, this 
opportunity for them to go into, as a number of people have 
mentioned and Congressman Inslee mentioned, the need for a 
compact and the bones that could be offered out in the 
political dialogue in D.C. And there is no question that one of 
the advantages this field is showing right now is dramatically 
higher job creation numbers than the same amount of investment 
in fossil fuels.
    Now, this is a transitory effect; it will not go on 
forever. But at the moment we are trying to dramatically 
increase the budget. The fact that we see three to five times 
more jobs per dollar invested in the clean tech energy area--
and I am including energy efficiency that we have not mentioned 
explicitly here, but it is vital to the equation, this job 
dividend, green collar jobs, inner city jobs, as well as the 
high-end jobs--is a critical benefit that we can capture. And 
right now many of those jobs are going to Germany, Norway, 
Portugal. So we are losing out. In fact, little Portugal just 
set up a clean energy research investment fund larger than the 
entire U.S. investment in this area.
    Mr. McNerney. I see that my time has expired.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    And without giving away our ages, I would say Dr. Hockfield 
has probably already acknowledged being in the same group that 
I am in, which grew up during the Space Race. My father was 
head of the design team that built a camera that took the first 
live pictures from the moon when Neil Armstrong walked on the 
moon. And my brothers and I got used to having a blackboard 
over the breakfast table and solving equations that he would 
scribble out for us while we were downing our cereal. We 
benefited from a generation that pulled us out of the 
Depression. The Greatest Generation, the end of the American 
century that--the second half of which I lived through, the 
generation that won World War II.
    It took great determination and vision and hard work and 
investment for that generation to win a war and for us to put a 
man on the moon. But that wasn't all. Their effort was backed 
up by the resources that put into place an incredible 
investment at the time in pure research.
    I just came back a couple weeks ago from Denver, and one of 
the most exciting things that--maybe the most exciting thing 
for me was not the political goings-on, although those were for 
somebody who had never attended a convention before very 
exciting, but I got to go to NREL, the Renewable Energy 
Laboratories, to ENCAR, the Atmospheric Research Center, and to 
NOAA's research center in Boulder. And in the space of 2 days I 
saw the latest plug in hybrids, the latest solar, thin-film 
photovoltaics that are 23 percent efficiency, which is the high 
point they have achieved so far to my knowledge, and biofuels 
that are being created from nonfuel sources like wood chips and 
cornstalks and husks, not the corn kernels that are the food 
everybody is worried about.
    And then the next day, after seeing the good news, I got to 
go to NCAR and NOAA and see what would happen to the planet if 
we don't do anything. And to anybody who hasn't been there and 
seen this, I highly recommend it, because I have already read 
the statistics and I am a believer. And I have been working on 
renewable energy issues for 30 years, and it was like being hit 
over the head with a 2x4 to see the graphic demonstration of 
what happens when the growing latitudes for food move into the 
alluvial plain of Canada where there is no soil.
    And I said to the director of NOAA, I guess we will go from 
being a net exporter of food to being a net importer of food. 
And his answer was ``Yes, but from where?'' And he pushed the 
remote control to revolve that big globe they had up there and 
showed that all continents are the same color red, all the 
continents will be, if we do nothing, will be pushing the 
growing latitudes toward the poles at the same time that we are 
projected to have 12 billion people on the face of this Earth.
    So we are looking at a situation that cannot be dismissed. 
But the good news is that, at the same time, we do have the 
technologies and we need to make the right choices.
    Mr. Inslee covered some of the ground that I was going to 
ask about in terms of making choices and stovepiping, and I am 
particularly interested that we not favor some industries, as 
we do. I mean, there are costs that are not included in the 
kilowatt hour price that are charged for electricity generated 
from nuclear and from fossil fuels, whether they be the cost of 
wars in unstable areas of the world that have oil or the fact 
that the taxpayer has subsidized the insuring of all nuclear 
plants since the Price-Anderson Act.
    And so I would prefer to see either a level playing field 
or some kind of equal subsidies for renewables, but that is 
just my opinion.
    I am also concerned that I have been buying wind power in 
my home at Dover Plains, New York, for several years. The 
company that--the wind firm that I am buying it from was just 
bought by a Spanish conglomerate, Iberdrola, a good company but 
not an American company. So now my dollars are going for the 
profit of a foreign-owned corporation.
    And when I was in Colorado, I saw one of the largest new 
photovoltaic installations there, built and installed by 
American workers, but the solar cells were made in China. So if 
we go from buying fuel from overseas to buying solar cells from 
overseas, we are really out of the frying pan and into the fire 
economically. And we are also not putting our brainpower to 
work in the way that we should.
    That is enough rambling from me, but I just wanted to ask 
in terms of funding climate observation, to the degree that we 
have a shortage of funds here, we will be looking at trying to 
make a choice between preventing climate change or focusing on 
mitigation to some extent, and also prioritizing renewables and 
noncarbon-based sources of energy versus funding of further 
climate investigation and focusing on localities and regions as 
opposed to the bigger picture.
    So perhaps, Dr. Fellows, maybe you would like to start 
answering how you would prioritize those things.
    Mr. Fellows. Well, in terms of observations, whether you 
are doing mitigation or adaptation, you need observations. For 
mitigation, you will be monitoring the carbon levels to see if 
you are achieving them. For adaptation, it is more about what 
are the processes that we need to understand to adapt to.
    So it was--last year, in 2007, the National Research 
Council actually produced a study that laid out all the 
missions that--observational missions you need to take all the 
vital signs of the United States. There are 17 of them. And 
even in the document that I provided in my testimony, out of 
the $9 billion those that fall in the next 5 years are funded. 
So we have a very good road map of what kind of observations we 
need for both mitigation and adaptation.
    Mr. Hall. Mr. Chairman, if you would allow the other 
witnesses to answer the same question, if they wish.
    Mr. Forrest. One of the issues that I would like to bring 
forward is that we are talking an awful lot about energy 
generation. But there is a tremendous amount we can do with 
conservation as well. And that also--and we can do that 
immediately. Interior lighting takes up 20 percent of 
electricity that is in the grid today. And we are still using 
an incandescent bulb which is basically a heater that gives off 
light as a byproduct.
    There are other sources. In the automotive domain, we can 
do hugely better.
    So these are very quick responses that we can actually 
implement within a matter of a few years, and that will really, 
I think, change also the growth of carbon in the atmosphere at 
a real rate. We should never take our eye off the ball of 
conservation. There are a lot of solutions there.
    Ms. Hockfield. Can I just add a little bit of reflection 
about energy research?
    We are talking about funding energy research and ramping it 
up very rapidly. I would just add caution that it should not be 
too clever. There are a lot of technologies that are almost in 
reach. And we very much want to move those along and get them 
implemented. But I believe that one of our government's major 
responsibilities and one of the important reasons why we have 
done so well in so many new industries is that we have invested 
in basic research, the kind of research where, when you embark 
on it, you don't know what is going to come out of it. There 
will be new technologies coming along in the future only if we 
invest in basic research today.
    So let us--I am very enthusiastic about funding research 
that will deliver technologies for tomorrow and 5 years and 10 
years from now. We have got to be thinking about what we need 
to put in place that we are funding the technologies 50 years 
from now. And that has been the brilliance of, frankly, DARPA, 
the NIH, in funding early research that nobody could have 
predicted exactly where it was going to come out, but has been 
so, so important for the Nation's success.
    Mr. Kammen. A critical part of the story that we have to 
come back to again and again is that even if we get to this ten 
times increase in the Federal money, which is certainly the 
goal that the papers in my lab have cited, it is going to be 
the private sector investment far--many times that that we are 
going to need. To do that we need to send a number of signals 
that this area is both stable, as we have described, but also 
we have opportunities now to help balance this field out.
    A number of States have adopted so-called loading orders 
benefiting clean energy, energy efficiency and the low carbon 
sources before they would authorize new fossil fuel production. 
That sends a strong signal.
    A number of other utility areas have engaged in a process 
of decoupling the revenues from more electricity sales with 
their overall profit based on a mechanism that allows a 
forecast of sales and the amount you get paid per kilowatt hour 
to vary to that target. That encourages conservation, it 
encourages low-carbon forms of energy.
    So we have a number of mechanisms that aren't going to be 
seen as strictly research spending that can dramatically expand 
the industry's interest, ability and rewards for going to the 
clean area. That is really why at the legislation level we 
critically need to tie these at all points, back and forth.
    One last point on this is that we have effectively 
frittered away the last 20 years or so of knowledge of the 
climate change story. The details are still coming in, but the 
basic story has been known for some time. And many of these 
technologies have been ready together.
    We need to pull on the market as well as pushing on the 
research side. And many of those market pulls do not require 
dramatic amounts of added money. Some do, like a better grid. 
But coupling clever policy tools and this much expanded R&D 
base really does send the signal that industry needs to make 
this a new national priority.
    Mr. Hall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman's time has expired.
    What I am going to ask now is for each you to give us your 
best minute and a half summary of what you want the Congress to 
remember about this issue as we move forward in putting 
solutions in place. And we will go in reverse order.
    We will begin with you, Dr. Fellows.
    Mr. Fellows. Thank you, Chairman.
    Well, from our perspective, we really see this as 
civilization standing at a serious crossroads. We have a lot of 
uncertainties that we are facing.
    Mr. Hall, I have sat with Sandy McDonald before and looked 
at that large globe in NOAA. One of the big concerns we have is 
helping local and regional decision makers deal with energy 
issues, with water, with food issues to reduce some of the 
uncertainties.
    Another really scary one is, civilization has been putting 
about 6 or 7 gigatons of carbon into the atmosphere. There are 
thousands of gigatons of carbon frozen in the Arctic. As the 
Arctic heats up--and it will heat up quite a bit more than the 
rest of the world--how quickly would that be released. If it is 
released quickly, it could be the end of civilization.
    That is a kind of uncertainty that we don't fully 
understand. I am not saying it will happen, but we don't 
understand it.
    So the kind of research investments that we are talking 
about in this community document addresses those type of 
issues.
    The Chairman. Thank you, Dr. Fellows.
    Dr. Kammen.
    Mr. Kammen. First, energy is a $1 trillion industry in this 
country. We import $700 billion of that. And so what we are 
calling for here is a very small down payment, a very small 
brain trust to manage that huge industry.
    It is exactly in keeping with the amount of effort we would 
need in this area. And the fact that we do have such an 
important diversity of energy research topics and researchers 
ready to go should give every Member of Congress and the Senate 
the motivation to stick with the plan to develop these carbon 
and energy plans and to bring them forth and to recognize that 
poll after poll of Americans says that clean energy and secure 
low-carbon power is something that people want. They need the 
political leadership and they need the vision that this is 
going to be a plan.
    We lack that plan, we lack that go-to-the-moon sort of 
mentality right now. That is the vital lesson that will bring 
all of the science technology base broadly into the market.
    The Chairman. Thank you, Dr. Kammen.
    Dr. Forrest.
    Mr. Forrest. To me, it is really just simply a matter of 
priorities. As a Nation, we have great wealth and we can set 
our priorities almost at will if we choose to. And I can't 
think of a higher priority. Everything is at stake here. Our 
national security, we are currently buying our energy from our 
least best friends in the world, primarily. It is a question of 
a clean environment. What are we leaving for our children? What 
are we leaving for generations to come? And finally it is an 
issue of economic leadership in our standard of living.
    Really it is the issue of the 21st century. If America does 
not seize this as a top priority, as perhaps the top priority, 
we will lose our position inevitably in the world; and it is 
going to happen very quickly. So I don't think that we have 
time to lose. I think that, responding just a wee bit to Mr. 
Inslee's question of where do we get the political heft to 
throw this forward, I think there is a rising chorus of voices. 
It may not hit today in full, or even tomorrow, but it has got 
to hit within the next year or two, because if we don't set 
this as the priority--I can give you one example.
    Germany has set this as a national priority to get off of 
the foreign oil addiction and so on, and they have invested 
through their tax structures and so on in large growth in their 
solar industry. It is just one example, but they have set the 
priorities, and they are on their way. We need to get on our 
way.
    The Chairman. Thank you, Dr. Forrest.
    And Dr. Hockfield you are cleanup.
    Ms. Hockfield. So we have all articulated the deeply linked 
challenges of economic insecurity, energy insecurity and global 
climate change. What we have been advocating for is a massive 
powerful important investment in research universities. These 
kinds of investments have a double return. We produce 
innovations and innovators. And what we are asking is, please, 
help us unleash the power of America's innovation economy to 
turn this global energy challenge into a wonderful energy 
opportunity.
    Thank you so much for holding this hearing.
    The Chairman. Well, thank you. It is our honor to have such 
a distinguished panel. And this is going to be a very important 
panel in terms of the information you have given us as we 
formulate the plan for January and February of 2009. We are 
clearly at a point where the debate for President is revolving 
around this issue.
    And as I said in my opening, ``drill, baby, drill'' is not 
a long-term strategy for the United States with 3 percent of 
the oil reserves. We need to unleash this technological genius. 
That is our strength, and that is always what has led to the 
United States being the dominant power in the world. And if we 
don't tap it, then we will become ever more dependent upon 
those who not only are weak in technology but are strong in our 
weakness.
    And that is something that ultimately, I think, can only be 
remedied by unleashing all the young people at universities you 
are finding want to solve this problem.
    So we thank each of you for being here today.
    The hearing is adjourned. Thank you.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





</pre></body></html>
